BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Motion for Leave to Proceed in Forma
Pauperis and Petition for Writ of Certiorari of David
Wayne Allen v. Betty Mitchell, Warden, were sent via
Three Day Service to the U.S. Supreme Court, and 1
copy was sent via Three Day Service and e-mail to the
following parties listed below, this 10th day of August,
2020:
David Yost
Mr. Benjamin Flowers
Solicitor General
Charles L. Willie
Deputy Solicitor
Ohio State Attorney General's Office
30 East Broad Street, 17th Floor
Columbus, Ohio 43215
benjaminflowers@ohioattorneygeneral.com

Counsel for Respondent
John J. Ricotta
Counsel of Record
1360 East 9th Street, Suite 910
Cleveland, Ohio 44114
(216) 241-0715
(216) 241-9434 - fax
jjricotta@aol.com

Counsel for Petitioner
David Wayne Allen

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite l 02

1300 I Street, NW, Suite 400E

www.beckergallagher.com

' Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 10, 2020.

Do"iina J. WoW
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Notary
[seal]

~ (/"0/- 16 c:RJdD

~~c ~
~,

